U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Institute for International Steel, et al. v. United States
of America, et al., S.Ct. No. 19-1177

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 25,
2020, and placed on the docket on March 27, 2020. The government's response is due on April
27, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 26, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1177
AMERICAN INSTITUTE FOR INTERNATIONAL
STEEL, ET AL..
USA, ET AL.

ALAN B. MORRISON
GEORGE WASHINGTON UNIVERSITY LAW
SCHOOL
2000 H STREET, NW
WASHINGTON, DC 20052
202-994-7120
ABMORRISON@LAW.GWU.EDU
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-2 1 8-4600
ISHAPIRO@CATO.ORG

